Memorandum from the Office of the Inspector General



September 22, 2010

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2008-12283-08 – REVIEW OF TVA’S PLANS FOR
OFF-SITE TRANSPORTATION AND DISPOSAL OF ASH FROM KINGSTON



Attached is the subject final report for your review and action. Your written comments,
which address your management decision and/or actions taken, have been included in the
report. Please notify us when final action is complete.

The Office of the Inspector General (OIG) contracted with Marshall Miller & Associates,
Inc., to conduct this review. All work pertaining to this review was conducted by Marshall
Miller. The OIG relied on Marshall Miller’s processes and procedures for quality control in
the attached report. Information contained in this report may be subject to public
disclosure. Please advise us of any sensitive information in this report that you
recommend be withheld.

If you have any questions, please contact Gregory R. Stinson, Project Manager, at
(865) 633-7367 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 785-4810. We appreciate the courtesy and cooperation received from your staff
during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GRS:NLR
Attachment
cc: See page 2
Robert M. Deacy, Sr.
Page 2
September 22, 2010



cc (Attachment):
      James S. Baugh, LP 4G-C
      Robert J. Fisher, LP 3K-C
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Stephen H. McCracken, KFP 1T-KST
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      David R. Mould, WT 7B-K
      Anda A. Ray, WT 11A-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3A-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2008-12283-08

     Mr. Eddie Dorsett, Phill-Con Services
       Review of Ash Transportation and Disposal Plans
                                          Dated September 22, 2010

                        Tennessee Valley Authority Kingston Fossil Plant (KIF)
                                        Harriman, Tennessee



                                                                                 Prepared for:




                                                                     TVA Office of the Inspector General
                                                                          Knoxville, Tennessee



                                                                                 Prepared by:




                                                                           Project No.: TVA104-04

                                                                              September 2010




Marshall Miller & Associates, Inc.
ENERGY/ENVIRONMENTAL/ENGINEERING/CARBON MANAGEMENT

5900 Triangle Drive
Raleigh, NC 27617
Tel (919) 786-1414 • Fax (919) 786-1418
www.mma1.com
                                                                     Review of Ash Transportation and Disposal Plans
                                                                                                 Kingston Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                   September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 1


TITLE PAGE
Title of Report

Review of Ash Transportation and Disposal Plans
Tennessee Valley Authority Kingston Fossil Plant
Harriman, Tennessee


Effective Date of Report

September 22, 2010


Qualified Persons

MARSHALL MILLER & ASSOCIATES, INC.




Timothy D. Grant, P.G.                                James L. Douglass, P.G., P.E.
Senior Project Manager                                Senior Engineer
                                                                       Review of Ash Transportation and Disposal Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 2


EXECUTIVE SUMMARY
       Marshall Miller & Associates, Inc. (Marshall Miller) was asked to review the
Transportation and Disposal Plans prepared by the Tennessee Valley Authority (TVA) in
response to the ash release that occurred on December 22, 2008 at its Kingston Fossil Plant
(KIF) located in Harriman, Tennessee, In addition, Marshall Miller determined if appropriate
steps are being taken to minimize the environmental impacts and if regulatory requirements are
being met. In summary, Marshall Miller found that TVA is taking appropriate steps to minimize
the environmental impacts of transporting ash from KIF to the Arrowhead Landfill in Perry
County, Alabama. Furthermore, no significant deficiencies in documents reviewed, regulatory
requirements, or in the landfill operations were found. Specifically, Marshall Miller found at the
Arrowhead Landfill that the (1) ash removal and rail car wash systems and procedures appear to
be adequate for minimizing the potential for residual ash to enter the nearby surface water,
(2) storm water management practices appear to be effective for segregating and managing storm
water runoff, (3) roads, work, and vegetated areas appear to be maintained such that sediment
runoff is minimized, (4) surface water features in the immediate vicinity did not exhibit signs of
excess sedimentation, debris build-up, or other potential adverse impacts that could be associated
with a landfill, and (5) leachate management and disposal practices appear to minimize, to the
extent practicable, the potential for off-site exposure from ash constituents.

       While Marshall Miller did not find significant deficiencies in the operation of the landfill,
several areas were noted where improvements could be made. The Rail Yard and Landfill Best
Management Practice Plans do not effectively describe and document the actual activities,
procedures, equipment and operations that were observed during Marshall Miller’s site visit on
April 21, 2010. The Spill Prevention Control and Countermeasures Plans appear to provide
adequate protection; however, the Plans do not include spill volume estimates for certain spill
scenarios, secondary containment for mobile tankers, and locations for spill kits and equipment.
Lastly, Marshall Miller noted one of the National Pollutant Discharge Elimination System
discharge points is located at a point that could be affected by runoff from land that is not part of
the landfill. This issue had already been identified and is currently being addressed by the
landfill owner.
                                                                  Review of Ash Transportation and Disposal Plans
                                                                                              Kingston Fossil Plant
                                                       Tennessee Valley Authority - Office of the Inspector General
                                                September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                           • Page 3

       TVA management agreed with the recommendations and we concur with their planned
and completed actions. However, TVA management needs to provide an updated Landfill Spill
Prevention Control and Countermeasures Plan to address the relocation of fuel tanks from the
rail yard to the landfill. This plan will be needed to close this item. Management’s complete
substantive comments are included in the Appendix of this report. TVA management also
provided some administrative and clarifying comments for our consideration. These technical
comments were reviewed and incorporated as appropriate.
                                                                                           Review of Ash Transportation and Disposal Plans
                                                                                                                       Kingston Fossil Plant
                                                                                Tennessee Valley Authority - Office of the Inspector General
                                                                         September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                    • Page 4


TABLE OF CONTENTS

TITLE PAGE ............................................................................................. 1 
EXECUTIVE SUMMARY ........................................................................... 2 
TABLE OF CONTENTS .............................................................................. 4 
ITEM 1:  INTRODUCTION AND BACKGROUND ..................................... 5 
ITEM 2:  PEER REVIEW OF TRANSPORTATION AND DISPOSAL
         PLANS..................................................................................... 6 
ITEM 3:  OPERATIONAL HISTORY OF ARROWHEAD LANDFILL ........ 8 
ITEM 4:  PEER REVIEW OF LANDFILL OPERATIONS .......................... 9 
        4.1.     OVERVIEW OF LANDFILL OPERATIONS ...................................................................9 
            4.1.1.  Ash Transfer Operations .............................................................................................. 9 
            4.1.2.  Haul Road Conditions ................................................................................................ 10 
            4.1.3.  Cell disposal areas ...................................................................................................... 11 
        4.2.     NPDES PERMIT REVIEW ......................................................................................11 
        4.3.     STORM WATER COMPLIANCE REVIEW .................................................................13 
            4.3.1.  General Storm Water Management Observations ...................................................... 13 
            4.3.2.  Rail Yard Operations .................................................................................................. 14 
            4.3.3.  Landfill Operations .................................................................................................... 16 
        4.4.     LEACHATE MANAGEMENT ....................................................................................16 
        4.5.     GROUNDWATER .....................................................................................................18 
        4.6.     AIR MONITORING ..................................................................................................19 
            4.6.1.  Loading and Unloading, Worker Exposure Particulate Monitoring........................... 20 
        4.7.     OTHER ISSUES .......................................................................................................20 
ITEM 5:          CONCLUSIONS ..................................................................... 22


APPENDIX
MEMORANDUM DATED JULY 27, 2010 , FROM ROBERT M. DEACY TO
ROBERT E. MARTIN
                                                                    Review of Ash Transportation and Disposal Plans
                                                                                                Kingston Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                  September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 5


Item 1:       INTRODUCTION AND BACKGROUND
       In response to an ash release that occurred on December 22, 2008, at the Kingston Fossil
Plant (KIF) located in Harriman, Tennessee, the Tennessee Valley Authority (TVA) entered
into an Administrative Order and Agreement on Consent (Order) with US Environmental
Protection Agency (EPA) Region IV on May 11, 2009, which directs all response activities
under the Comprehensive Environment Response, Compensation, and Liability Act (CERCLA).
The Order imposes requirements for TVA to ensure proper management and disposal of the
recovered ash in a Resource Conservation and Recovery Act Subtitle D landfill. The intent of the
review conducted by Marshall Miller & Associates, Inc. (Marshall Miller) is to evaluate
whether TVA’s disposal efforts are reasonable and meet the objectives of the Order.

       Under this task, Marshall Miller met with and participated in teleconferences with
various representatives of TVA Office of the Inspector General (OIG), TVA, Phill-Con
Services LLC (PCS), Phillips and Jordan (P&J), and their consultants, conducted a site
inspection of the Arrowhead Landfill in Perry County, Alabama, on April 21, 2010, and
reviewed the various documents prepared by TVA, PCS, and Alabama Department of
Environmental Management (ADEM).
                                                                          Review of Ash Transportation and Disposal Plans
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                        September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 6


Item 2:        PEER REVIEW OF TRANSPORTATION AND DISPOSAL PLANS
       TVA’s methodology for evaluating transportation and disposal alternatives are outlined
in the Offsite Ash Disposal Options Plan dated June 29, 2009, and the Ash Loading Test
Evaluation dated May 28, 2009.

       In February 2009, TVA issued a Request for Proposals (RFP) to identify and select
disposal facilities for ash recovered from the time-critical areas, (i.e., the Emory River). TVA
received over 25 proposals for ash disposal, but most were eliminated from further consideration
for a variety of reasons, including, the facility was located too far from KIF, the landfill did not
meet Subtitle D requirement, or the facility would take too long to get permitted. The evaluation
also considered local landfills that were within 60 miles of KIF, but due to concerns about road
damage resulting in increased truck traffic and the increased risk of accidents; only those
facilities with rail service were further considered.

       Three facilities with rail access, the Arrowhead Landfill in Perry County, Alabama,
Veolia-Taylor County Landfill in Georgia, and the Hazleton Mine Reclamation site in
Pennsylvania, were further evaluated. The Hazleton facility was removed from consideration as
its owner would not commit to installing a liner.

       Pilot tests were initiated at the remaining two locations in May 2009 using various lining
methods and loading and unloading methods by representatives from P&J (loading and disposal),
Veolia Environmental Services (disposal only), and MACTEC (loading only). Based on the
loading tests, the “Ash Loading Test Evaluation” recommended using burrito liners during wet
weather and a tarp system during dry weather for transportation. The tarp system was later
proven to be ineffective; therefore, it is Marshall Miller’s understanding that TVA only uses the
burrito liner. Additionally, TVA uses a polymer that is sprayed on top of the ash in the rail cars
that effectively caps the ash to control water from splashing. Unloading evaluations were also
conducted, which indicated that both facilities were able to efficiently handle the ash safety and
at the necessary volume. The Arrowhead Landfill was ultimately selected due to lower cost.
The Offsite Ash Disposal Options Plan also points out the economic benefits to Perry County as
a result of the Arrowhead Landfill receiving the ash, as well as the strong support from local
                                                                     Review of Ash Transportation and Disposal Plans
                                                                                                 Kingston Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                   September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 7

elected officials. The plan does not indicate that these factors were a consideration for awarding
the disposal contract to the Arrowhead Landfill.

       In summary, the methods employed by TVA for loading and transporting the ash appear
to be effective in reducing the potential for environmental impacts during transportation to the
Arrowhead Landfill. Marshall Miller is not aware of any releases (dust, etc.) that have occurred
during transportation.
                                                                     Review of Ash Transportation and Disposal Plans
                                                                                                 Kingston Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                   September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 8


Item 3:        OPERATIONAL HISTORY OF ARROWHEAD LANDFILL
       The Arrowhead Landfill is owned by Perry Uniontown Ventures, LLC (PUV) and is
operated by PCS, which is an affiliate of P&J. The permit holder is Perry County Associates,
LLC (PCA).       TVA began shipping ash to the facility in May 2009 under an Advanced
Authorization agreement with P&J. The contract between P&J and TVA was finalized in
September 2009.

       The official landfill name in the permit documents is Perry County Associates Landfill
(herein referred to as the Arrowhead Landfill), and the current permit will expire on July 5, 2011.
The landfill was initially permitted in July 2006 and began receiving waste in October 2007.
Initially the majority of the waste disposed at the landfill was construction and demolition waste
from the northeastern United States, which was shipped by rail. The original permit allowed for
7,500 tons per day (tpd). On July 20, 2009, the permit was modified to increase daily allowed
tonnage to 15,000 tpd and to increase the service area.

       According to the Quarterly Report of Volume for the first quarter of 2010, the landfill
receives a daily average of approximately 6,570 tpd of out-of-state waste (i.e., ash) and 110 tpd
of municipal solid waste. However, ash unloading operations typically cease during heavy
precipitation or lightening events, so this figure is misleading as it assumes the unloading occurs
seven days a week. When rain days are removed, the actual volume of ash disposed daily is
approximately 11,000 tpd. As of April 28, 2010, the landfill has received slightly more than two
million tons of ash.

       On January 26, 2010, PUV and PCA filed a bankruptcy petition seeking protection under
Chapter 11 of the federal bankruptcy code. TVA and PCS personnel indicated during interviews
with OIG and Marshall Miller that monies are still being deposited in the post-closure fund and
paid to Perry County. As of the issuance of this report, the bankruptcy has not been settled and
operations at the landfill are continuing as normal. TVA does not feel that the bankruptcy
process will affect the continued disposal of ash in the landfill as the ash represents the primary
source of revenue for the facility.
                                                                        Review of Ash Transportation and Disposal Plans
                                                                                                    Kingston Fossil Plant
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                      September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 9


Item 4:          PEER REVIEW OF LANDFILL OPERATIONS
         The peer review of the Arrowhead Landfill operations is based on Marshall Miller’s
review of relevant documents provided by TVA, P&J, and on the ADEM Website, and
observations made by Marshall Miller staff during a site visit on April 21, 2010.

         The site reconnaissance included the disposal and rail yard transfer operational areas, the
interconnecting haul road, National Pollutant Discharge Elimination System (NPDES) outfall
locations, the borrow pit within the future Tract 3 cell area, and the section of Cahaba Road
along the southern boundary of the Arrowhead Landfill property.

         The overall objective of the site reconnaissance was to make observations of the ash
disposal process and facility operations as particularly related to storm water and air quality, as
well as for any areas of interest noted during the documents review. Marshall Miller made
observations on the following during the site reconnaissance:

                Ash transfer operations.

                Haul road conditions.

                Cell disposal areas.

                Storm water management practices.

                NPDES points.

                The roadside ditch along Cahaba Road.

                Air monitoring stations.

         In general, the tour was inclusive in character; all requests to visit specific areas were
granted, and access to all operational areas was granted.

4.1.     OVERVIEW OF LANDFILL OPERATIONS
4.1.1.       Ash Transfer Operations

         Rail cars containing KIF ash are unloaded at the rail yard facility, and this operation was
observed during the site visit.         Unloading is accomplished using clamshell buckets, which
                                                                      Review of Ash Transportation and Disposal Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 10

transfers the ash into trucks. Once empty, the rail cars are moved to the north track for cleaning.
The interior and exterior are cleaned using pressurized water and staged for the return trip to
KIF. The exterior wash water is collected in sumps and reused to wash the cars interiors. Also,
the water used to wash rail cars exteriors is collected and routed to settling tanks and is not
allowed to flow into the storm water ditch. Interior wash water is recirculated and reused for
interior washing. This water is pumped from the cars using vac-trucks and passed through a
series of settling tanks for solids removal before being reused. The settling tanks are frequently
cleaned out, and the sediment is managed onsite as ash material.

         During the loading process, Marshall Miller observed that small amounts of ash are
unavoidably dropped on the work area surface, which is finished with compacted stone. Site
representatives stated that a skid steer is used to remove this material at the end of each work
day. Marshall Miller observed the skid steer in the work area and, although the work surface
was not hard-paved with asphalt or concrete, it appeared that the landfill staff are able to remove
the bulk of the spilled material using this procedure.

         Since spilled material has the potential to enter storm water runoff, unloading operations
are shut down during heavy precipitation events. Storm water from the transfer work area drains
through ditches and sediment traps before discharging to an unnamed tributary to Tayloe Creek.
PCS indicated that the sediment basins are routinely inspected and cleaned. The observed
sediment basin on the south side of the rails appeared to be in good physical condition.

4.1.2.     Haul Road Conditions

         The haul road is reported to be about 10,000 feet in length and runs between the rail yard
to the north and the disposal area to the south. The road is relatively wide, level, and appears to
be in overall good physical condition. Marshall Miller did not observe signs of spilled ash or
other municipal solid waste (MSW)-type debris along the length of the haul road. PCS personnel
reported that the haul trucks are able to communicate with each other, and that loaded haul trucks
are given the right-of-way over all other vehicles so that the potential for mishaps and spills is
minimized. The haul road is frequently travelled by facility employees during the work day who
                                                                       Review of Ash Transportation and Disposal Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 11

are instructed to report any observed spilled material.               Any spilled material would be
immediately cleaned by landfill staff.

4.1.3.     Cell disposal areas

         The cell disposal areas appeared to be built as designed and appeared to be well
maintained and in good physical condition. Leachate collection pipes were evident along the cell
perimeter. Signage identifying key components or other pertinent features was noted within the
landfill areas. The roads and vegetated buffers appeared to be in generally good condition.
Marshall Miller did not observe blowing, spilled, or stray ash or MSW in the disposal areas. One
of the newly installed methane vent wells was observed and appeared to be functioning properly.
Little odor was noted during the visit, and this observation was essentially limited to the area
immediately adjacent to the MSW disposal cells.

4.2.     NPDES PERMIT REVIEW
         PCS maintains separate general NPDES permits for the rail yard and landfill areas. The
landfill storm water discharges are authorized under General NPDES Permit authorization
ALG160167 dated November 24, 2009. The rail yard storm water discharges are authorized
under General NPDES Permit authorization ALG140902 dated November 24, 2009. This review
contains information obtained from the NPDES permit documents, the Best Management
Practices (BMP) and Spill Prevention Control and Countermeasure (SPCC) plans further
discussed in Section 4.3 of this report and the April 21, 2010 site visit.

         Two discharge points (1 & 2) are identified in the Rail Yard Permit, both with Tayloe
Creek listed as the receiving water. Point 1 is identified at the western end of the subject
Property, and Point 2 is located along the eastern side of the property. The Rail Yard Permit
discharge limitations for Point 1 are listed as DSN001 and DSN010; the discharge limitations for
Point 2 are listed as DSN007. DSN001 applies to storm water from vehicle and equipment
parking and maintenance areas. DSN007 applies to vehicle and equipment washing operations
that do not use solvents. DSN010 applies to uncontaminated storm water from equipment
maintenance, storage, petroleum storage and handling areas.
                                                                      Review of Ash Transportation and Disposal Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 12

       Two discharge points (1 & 2) are identified in the Landfill Permit authorization, and both
list unnamed tributaries to Tayloe Creek as the receiving water. Outfall 1 is identified below a
sedimentation basin at the eastern side of the subject property, while Outfall 2 is located below a
sedimentation basin on the western side of the property.                The Landfill Permit discharge
limitations for Outfall 1 are listed as DSN001 and DSN003. The discharge limitations for
Outfall 2 are listed as DSN001. DSN001 applies to storm water discharges which do not contain
leachate from active or inactive landfills. DSN003 applies to uncontaminated storm water from
equipment maintenance, storage, petroleum storage and handling areas.                          The monitoring
requirements for each DSN are listed in Part IA of the NPDES permits.                            The following
observations were made during the review of the permit coverage authorizations:

              The Rail Yard Location Map found in the permit documents shows Point 1 to be
               located at the southern property line, north of Tayloe Creek, while a drawing in
               Section 4.4 of the SPCC plan for the rail yard shows Point 1 to be in Tayloe
               Creek, offsite to the south on the landfill parcel. PCS indicated that the outfall is
               within Tayloe Creek. The maps should be revised to reflect the proper location.

              The Rail Yard Location Map and SPCC drawings indicate the Point 2 outfall is
               located in Tayloe Creek. USGS mapping suggests that outfalls located in Tayloe
               Creek would define watersheds that extend beyond the boundaries of the landfill
               parcel. For the rail yard, the location of storm water monitoring points located in
               Tayloe creek would not distinguish between offsite run-on storm water and rail
               yard storm water runoff. Under these conditions, the facility could assume
               liability for potential water quality issues in runoff from portions of the watershed
               that are beyond its control. Conversely, the water quality monitoring of a
               watershed substantially larger than the rail yard area could diminish the facility’s
               ability to identify water quality impacts from the rail yard itself.

       PCS stated that it had recently become aware of the issues above and had made an
application to modify the NPDES Rail Yard Permit to correct this situation. The modified
permit will have one NPDES outfall located on the tributary to Tayloe Creek that crosses
through the rail yard. The proposed NPDES point is to be located immediately below the storm
water discharge points from the ash transfer area and is to have a watershed that is substantially
on Arrowhead Landfill property. PCS stated that it would provide a copy of the modified
NPDES permit authorization to the OIG.
                                                                      Review of Ash Transportation and Disposal Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 13


4.3.     STORM WATER COMPLIANCE REVIEW
         Landfill operations were reviewed with respect to compliance with environmental permit
requirements and procedures that outline proper ash management and handling practices. Both
NPDES permits require that BMP and SPCC plans be prepared as a condition of compliance, if
applicable. Marshall Miller’s review incorporated information obtained from observations made
from available landfill documents and those made during the site visit. The available documents
used to provide information for this review are summarized below:

                Best Management Practices and Storm Water Pollution Prevention Plan for Perry
                 County Associates Rail Facility dated August 2009 (Rail Yard BMP Plan).

                Spill Prevention Control and Countermeasure Plan for Perry County Associates
                 Rail Facility dated August 2009 (Rail Yard SPCC Plan).

                SPCC Plan Rail Yard Site Map dated August 2009.

                Best Management Practices and Storm Water Pollution Prevention Plan for Perry
                 County Associates Landfill dated November 2007 and updated August 2009
                 (Landfill BMP Plan).

                Spill Prevention Control and Countermeasure Plan for Perry County Associates
                 Landfill dated August 2009 (Landfill SPCC Plan).

                SPCC Plan Landfill Site Map dated August 2009.

                Arrowhead Landfill TVA Fly Ash Disposal Safe Work Plan updated February 10,
                 2010 (Safe Work Plan).

         The NPDES General Permit requirements for SPCC and BMP Plan content are outlined
in Part IV of each NPDES permit as discussed in Section 4.2. In broad terms, the purpose of
SPCC and BMP Plans is to describe the facility and its operations, identify potential sources of
storm water pollution, and recommend appropriate BMPs or pollution control measures to
reduce the potential for discharges of pollutants in storm water runoff.

4.3.1.       General Storm Water Management Observations

         The landfill storm water management system appears to be constructed as illustrated on
the facility drawings. General storm water is segregated and managed separately from leachate
                                                                        Review of Ash Transportation and Disposal Plans
                                                                                                    Kingston Fossil Plant
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                      September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 14

or wash process water. Storm water ditches, channels, and basins appeared to be in good
physical condition with storm water flow directed to flow only through designated discharge
points. Unpaved surfaces appeared to be adequately vegetated or otherwise stabilized. Roads
and equipment work areas appeared to be well maintained.

         The landfill, haul road, and rail car operation areas appeared to be relatively neat and free
of stray refuse and debris. A skid steer was observed removing the incidental ash spillage that
occurs during rail car unloading operations.

         Surface water body observations were made at two locations along Tayloe Creek and at
one location at an unnamed tributary that passes through the rail yard area. No evidence of
excess sedimentation, debris, distressed vegetation, and/or unusual staining was noted, and the
surface water features were otherwise unremarkable in appearance.

         A borrow pit was observed in the Tract 3 future cell area. Storm water is being managed
in this area by self-containment; the pit was below grade and did not have a storm water outfall.

         During the site visit, the PCS related to Marshall Miller that the ADEM and the EPA
conducted a joint inspection of storm water conditions at both the landfill and rail yard unloading
areas in February 2010. The findings identified some issues to be addressed by the landfill but
resulted in no violations. PCS has prepared a response to the landfill area findings and is in the
process of responding to the rail yard findings. Copies of these documents will be provided to
the TVA, OIG, and Marshall Miller for review.

4.3.2.       Rail Yard Operations

         The following observations are made on the Rail Yard BMP Plan:

                The general character (i.e., loose bulk, containerized), types (i.e., non-hazardous,
                 ash, MSW) and approximate quantities of waste material received are not
                 described. The types of waste that are not accepted (i.e., hazardous, liquid) are
                 also not described. The nature and volume of the material handled at the rail yard
                 affects the types of BMPs to be implemented.
                                                             Review of Ash Transportation and Disposal Plans
                                                                                         Kingston Fossil Plant
                                                  Tennessee Valley Authority - Office of the Inspector General
                                           September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                     • Page 15


      General BMPs describing procedures for the handling of damaged or loose cargo
       so that potential storm water impacts are minimized are not outlined in the Rail
       Yard BMP Plan.

      The operational BMPs for the ash transfer process noted during the site visit are
       not described in the Rail Yard BMP Plan. These include the daily cleaning of
       incidental spills from the work surface and unloading operations shut-down
       during heavy precipitation events.

      The storm water sediment traps are identified as exterior residual washdown
       water BMPs but not also as overall storm water BMPs.

      The storm water sediment traps require routine maintenance to ensure that their
       storage capacity for settled particles is not exceeded. During the site visit, PCS
       stated that these structures are subject to routine inspection and maintenance;
       however, this is not clearly identified in the Rail Yard BMP Plan.

      The Safe Work Plan identifies safe work practices such as those for ash transfer,
       dust minimization and rail car movement. Many of the practices could also be
       considered operational BMPs for minimizing the potential for impacts to storm
       water runoff. The Safe Work Plan or its key components should be incorporated
       into the Rail Yard BMP Plan.

      BMP Plans typically identify the types and locations of equipment and supplies
       available to respond to spills of the material types handled by the subject
       facilities.

The following observations are made on the Rail Yard SPCC Plan:

      The table on Page 9 lists the secondary containment for the two mobile
       maintenance trucks to be “Inspections.” Inspections alone do not ordinarily meet
       the general secondary containment requirement for onsite mobile tankers. The
       SPCC’s general secondary containment requirements do not prescribe a size for a
       secondary containment structure but do require that some sort of containment
       measures, diversionary structures or equipment be implemented to prevent spilled
       oil from escaping to navigable waters prior to cleanup.

      The spill scenarios listed under Section 6 should include spill volume estimates
       for spill types such as dropped transfer nozzles or tank overfills. This information
       is useful for sizing the spill kit(s) kept onsite.

      Section H identifies the onsite spill kit location, but does not mention the
       minimum size or spill capacity that is to be maintained. The maintenance shop
       where the spill kit is kept is not identified as such on the Site Map.
                                                                       Review of Ash Transportation and Disposal Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 16

4.3.3.       Landfill Operations

         The following observations are made on the Landfill BMP Plan:

                The Landfill BMP Plan does not make reference to the storage and management
                 of ash in the same manner as that of MSW.

                The operational BMPs for the 250,000-gallon leachate storage tank and the
                 handling of leachate should be expressly identified in the Landfill BMP Plan.

                The haul road is principally located on the landfill tract and should therefore be
                 covered by this BMP Plan. The haul road and associated operational BMPs are
                 not identified in the Landfill BMP Plan.

                The Safe Work Plan identifies work practices such as the Haul Road Policy that
                 could also be considered to be operational BMPs for the haul road. The Safe
                 Work Plan or its key components should be incorporated into the Landfill BMP
                 Plan.

         The following observations are made on the Landfill SPCC Plan:

                The spill scenarios listed under Section 6 should include spill volume estimates
                 for spill types such as dropped transfer nozzles or tank overfills. This information
                 is useful for sizing the spill kit(s) kept onsite.

                Section 7.H does not identify the location of onsite spill kit or equipment. Also,
                 the minimum size or spill capacity that is to be maintained is not stated. The
                 location where the spill kit/spill equipment is kept is not identified on the Site
                 Map.

4.4.     LEACHATE MANAGEMENT
         Any leachate generated by the ash is currently managed with the MSW-derived leachate
as a combined waste stream. During an interview, PCS has indicated that leachate from newly
constructed ash-dedicated cells can be segregated and managed separately, if needed. However
during the early phases of ash and MSW disposal, while separated by soil covers, are disposed in
the same cell and segregation is not possible. Leachate from the landfill is stored in a 250,000-
gallon storage tank located onsite, where it is staged for transfer via tanker truck to the final
treatment and disposal facility.       Marshall Miller’s document review and reconnaissance
identified secondary containment for this storage tank. Leachate is currently treated at the City
of Demopolis wastewater treatment plant (WWTP).
                                                                     Review of Ash Transportation and Disposal Plans
                                                                                                 Kingston Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                   September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 17

        The agreement with the City of Demopolis allowed an average of 50,000 gallon per day
(gpd), with no single day greater than 100,000 gpd. Historically, leachate generation reportedly
was less than 25,000 gpd. However, during the recent winter, the region expected greater than
normal precipitation. This factor, along with a revised operational requirement from ADEM that
the facility handles run off from the ash as leachate, resulted in a significant increase in the
amount of leachate generated with reported volumes of up to 50,000 gpd. Since the ash was
originally approved as an alternative daily cover, runoff was treated as storm water. Leachate
production is currently declining with the advent of dryer, warmer weather.

        Leachate was sent to the City of Marion WWTP for a brief period between August 2009
and December 2009. When potential violations were noted at this facility by ADEM, leachate
was no longer sent to this facility and the leachate shipments to the City of Demopolis WWTP
resumed. Additionally, leachate was briefly sent to the Liquid Environmental Solutions facility
in Mobile, Alabama and to another third party WWTP in Georgia. Both facilities reportedly
stopped accepting leachate due to negative publicity.

        Currently, the primary leachate management options are off-site disposal at the City of
Demopolis WWTP and recirculation back into the landfill cells.                  Leachate recirculation is
permitted under the appropriate weather conditions. The landfill recirculates leachate during
warm, dry seasonal weather, as allowed under the limitations of its operational permit. A
secondary management option for emergency and/or limited quantities is leachate solidification.
Onsite leachate solidification basically consists of mixing the leachate with lime and then placing
the material in the landfill cell. This process has been approved by ADEM. In general, the
landfill uses this on an emergency or limited basis since the resultant material occupies landfill
volume.

        Leachate chemical quality data were reported in a laboratory report dated December 4,
2009.     It is Marshall Miller’s understanding that these data reflect the quality of leachate
generated by the combined MSW/ash cells. The chemical data report detections of parameters
such organic constituents, chemical oxygen demand, and organic nitrogen at levels which reflect
                                                                       Review of Ash Transportation and Disposal Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 18

the combined waste stream. Otherwise the data appear to be unremarkable with respect to
typical MSW leachate quality.

         As a result of the increased leachate generation, ADEM required that the Arrowhead
Landfill obtain a Significant Industrial Discharge (SID) permit for continued disposal at the City
of Demopolis WWTP.          The landfill was previously exempt from this requirement since it
generated less than 25,000 gpd. The City of Demopolis, however, allowed its NPDES permit
lapse by failure to reapply in a timely manner. As a result, the ADEM would not issue a SID
permit to the landfill until the Demopolis NPDES permit is renewed. On April 22, 2010, the
ADEM concurrently issued an NPDES permit to the City of Demopolis POTW and a SID Permit
to the Arrowhead Landfill for leachate disposal at the Demopolis WWTP. The landfill’s SID
and the Demopolis NPDES permits both contain water quality parameters that must be routinely
monitored for as a part of compliance, including a requirement for arsenic monitoring, a
parameter that is considered to be indicative of TVA ash leachate chemical quality.

         For the landfill, the facility SID permit has assigned specific discharge concentration
limitations to some of the parameters to be monitored.                   SID parameters with specific
concentration limits on the table below are compared with the available leachate quality data
discussed above, along with the Demopolis NPDES discharge limits.

                                             Facility SID Permit
                                                                                    Demopolis NPDES
                          Leachate             IU 39-53-00144
        Parameter
                        Concentration   Daily      Daily     Monthly         Daily        Daily       Monthly
                                        Min.       Max.       Ave.           Min.         Max.          Ave.
         pH (S.U.)          7.37         5.0        10.5         -            6.0          9.0           -
       Arsenic (mg/l)      0.0632         -        0.162      0.104            -            -          Report
       Oil & Grease
                             <5           -       150          100              -            -             -
           (mg/l)



4.5.     GROUNDWATER
         The “Report on Groundwater Quality Results and Statistical Analysis” for the first semi-
annual sampling event for 2010 identified detections of acetone and 2-hexanone.                                These
constituents have been detected previously and have been attributed to the use of paint on the
                                                                       Review of Ash Transportation and Disposal Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 19

steel risers during monitor well construction. This conclusion was supported by ADEM in a
review letter dated November 24, 2009.

        Given that the landfill was permitted relatively recently (2006) and is a Subtitle D facility
constructed in the Selma Chalk, a low-permeability geologic formation, it’s unlikely that the
detections originate from an anomaly such as this rather than from liner failure.

        The groundwater analytical results included metals analyses with reported detection for
barium. Previous sampling also reported detections for beryllium, chromium, copper, lead,
nickel, vanadium, and zinc.        The statistical report states that there is no evidence of
contamination for these constituents. Arsenic was reported as not detected in the groundwater
data.

4.6.    AIR MONITORING
        The ambient air monitoring program consists of three stationary monitoring locations.
There are two monitors near the active landfill cells. The first of the two (Cell 1) is located
between Cells 3 and 4 and the residences nearest to those cells. The Cell 1 monitor has been in
operation since ash has been accepted by the landfill. The second monitoring station (Cell 2) is
located between Cells 1 and 2 (the newly constructed cells) and the residences nearest to those
cells. The Cell 2 monitor was placed in operation on January 29, 2010, prior to placement of ash
in Cells 1 and 2. The Cell 1 and Cell 2 monitor locations were designed to monitor the potential
impact of particulates near residences. The third monitor (Rail) is located near the rail loading
and unloading operations to monitor particulates from the loading and unloading process. Each
of the three monitors employs a TSI AM510 SidePack Aerosol Monitor (TSI AM510) to
measure particle concentrations (PM10) in the air. The monitoring results are compared to the
EPA 24-hour average National Ambient Air Quality Standards (NAAQS) for PM10 (0.150
mg/m3). To date PM10 concentrations have been below the standard.

        The TSI AM510 is a belt-mounted personal mobile monitor designed to evaluate worker
exposure and was not intended for stationary ambient monitoring over a large site. While the
monitors cannot be used to legally determine whether the ambient air meets National Ambient
                                                                        Review of Ash Transportation and Disposal Plans
                                                                                                    Kingston Fossil Plant
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                      September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 20

Air Quality Standards set by EPA to protect public health, they can be used as a screening
indication of whether the air quality will meet the PM10 National Ambient Air Quality Standards.

4.6.1.       Loading and Unloading, Worker Exposure Particulate Monitoring

         The Safe Work Plan provided detailed provisions for minimizing workers’ exposure to
airborne ash:

                Currently the ash in rail cars is kept moist to prevent dust from becoming airborne
                 while ash material is transferred to landfill trucks. The superintendent at the
                 landfill cell monitors the condition of the ash during the landfilling operations. If
                 any portion of the ash becomes dry enough to become airborne, the
                 superintendent will direct the equipment operator to cover the dried ash with a
                 small amount of cover material. If ash becomes airborne beyond the boundary of
                 the cell, the superintendent will immediately stop the landfilling operations and
                 cover all the deposited ash with cover material.

                According to the Arrowhead Landfill Environmental Workplan (rev 11.30.09), at
                 least one equipment operator and grounds personnel will be measured for his/her
                 personal particulate exposure monthly. The personal samples will include
                 respirable dust and silica as well as total dust. Samples will be collected using a
                 Gilian personal sampling pump that will be calibrated with a primary standard
                 before and after use. Respirable dust/silica samples will be collected using 10
                 mm nylon cyclones. If total dust levels are determined by lab analyses to be
                 above 0.5 milligrams per cubic meter, the samples will be analyzed for arsenic
                 and cadmium as well. Fitting of the monitor, record keeping and sample
                 collection will be performed by the monitoring contractor. The monitoring
                 contactor will provide a technician to conduct the personnel monitoring at the
                 landfill. According to PCS, no exceedances have been noted.

4.7.     OTHER ISSUES
         Previously, it had been purported by others that the leachate had been illicitly discharged
to a drainage ditch along the nearby Cahaba Road. During the site visit, Marshall Miller visited
the area along Cahaba Road where this allegedly occurred. The area between the ditch and the
landfill appeared to be sufficiently vegetated, with no signs of rilling, bare-earth channel flow or
other erosion being noted. The ditch itself appeared to be predominantly overgrown with brush
and grasses. No evidence of unusual dead or dying vegetation was noted.
                                                                    Review of Ash Transportation and Disposal Plans
                                                                                                Kingston Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                  September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 21

       A few places were noted along the ditch banks where bare earth was exposed to the
surface.   The exposed soil appeared to consist of light gray blocky material composed of
weathered Selma Chalk. A faint light-colored staining was noted on the stems of some of the
grasses within the channel. The coloration appeared to be similar to the coloration of the chalky
soil that was noted to be exposed along the ditch banks.                   No evidence of excessive
sedimentation, unusual discolorations, seepages or other suspect discharges to the ditch were
observed by Marshall Miller during the April 2010 visit.
                                                                     Review of Ash Transportation and Disposal Plans
                                                                                                 Kingston Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                   September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 22


Item 5:       CONCLUSIONS
       Marshall Miller finds no significant deficiencies in documents reviewed or in the landfill
operations at the Arrowhead Landfill. A summary of findings is provided below:

             The ash removal and rail car wash systems and procedures appear to be adequate
              for minimizing the potential for residual ash to enter the nearby surface water
              feature.

             Haul road policies and procedures at the landfill appear to be adequate for
              minimizing, as well as for addressing, potential haul truck accidents and
              associated ash spills.

             The storm water management practices appear to be effective for segregating and
              managing storm water runoff.

             PCS appears to maintain its roads, work, and vegetated areas such that sediment
              runoff is minimized.

             The surface water features in the immediate vicinity of the landfill did not exhibit
              signs of excess sedimentation, debris build-up, or other potential adverse impacts
              that could be associated with the landfill.

             Leachate management and disposal practices appear to minimize to the extent
              practicable the potential for off-site exposure from ash constituents.

       TVA should consider the following recommendations:

             TVA should have a contingency plan in place for alternative disposal facilities
              should the Arrowhead Landfill be forced to close due to financial issues related to
              the bankruptcy.

             The Rail Yard and Landfill BMP Plans should be updated to more effectively
              describe and document the actual activities, procedures, equipment and operations
              that were evident during the site visit. Better details as outlined in Section 4.3 of
              this report will describe how the facility meets the NPDES BMP requirements,
              which in turn will outline how the landfill activities minimize the risk to the TVA.

             The SPCC Plans appear to provide generally adequate protection; however, the
              Plans should be reviewed and updated with respect to the items noted in Section
              4.3 of this report as well as current EPA SPCC requirements.

             PCS should be, and is, taking action to correct the discrepancies in the Rail Yard
              NPDES permit authorization. Marshall Miller understands that the revised permit
                                                                       Review of Ash Transportation and Disposal Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 23

               authorization will have one outfall located along that Tayloe Creek tributary that
               crosses through the approximate center of the property. PCS should provide the
               TVA with a copy of the revised NPDES Permit authorization.

              There is additional risk associated with sending leachate to multiple endpoint
               facilities that could develop non-compliance concerns and potentially increase the
               risk exposure to TVA. When possible, PCS should consider shipping leachate to
               only one facility.

       Marshall Miller appreciates the opportunity to provide these services to TVA OIG. If
there are any questions, or if we can be of further assistance, please do not hesitate to contact us.

Management's Response – The Senior Vice President, Fossil Generation, Development
and Construction, provided comments on a draft of this report and agreed to implement
the recommendations.

       In response to the recommendations, management provided the following comments:

              An action plan outlining the steps TVA would follow, responsibilities, and
               associated time frames should the Arrowhead Landfill become unviable has been
               developed and is ready for deployment.

              PCS will update the Rail Yard and Landfill BMP Plans, with a completion date of
               July 30, 2010.

              PCS will update the SPCC Plans, with a completion date of July 30, 2010. PSC
               has informed TVA that all applicable fuel tanks in the rail yard have been
               relocated to the landfill. Accordingly, there is no need to modify the Rail Yard
               SPCC plan to include these tanks.

              PCS has received a modified NPDES Permit from ADEM.

              PCS is shipping leachate to only one facility for processing at this time. While
               PCS maintains a listing of backup facilities that could receive leachate should the
               need arise, PCS intends to utilize these backup facilities only if the current
               disposal facility becomes unviable.
                                                                     Review of Ash Transportation and Disposal Plans
                                                                                                 Kingston Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                   September 22, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 24



Management’s complete substantive comments are included in the Appendix of this report.
TVA management also provided some administrative and clarifying comments for our
consideration. These technical comments were reviewed and incorporated as appropriate.

Auditor's Comments – We concur with TVA management's planned and completed actions.
However, PCS has informed TVA that all applicable fuel tanks in the rail yard have been
relocated to the landfill. Accordingly, there is no need to modify the Rail Yard SPCC plan to
include these tanks. While this will address the Rail Yard SPCC plan, the Landfill SPCC will
need to be modified to include the relocated tanks and that the location meets the general
secondary containment requirements. TVA management will need to provide an updated
Landfill SPCC for closure of this item.
APPENDIX
Page 1 of 4
APPENDIX
Page 2 of 4
APPENDIX
Page 3 of 4
APPENDIX
Page 4 of 4
